App. 1
2019 PA Super 174
STEPHEN RATNER AND
AUDREY RATNER AND
DR. ROBERT OSTOYICH
Appellants
v.
IRON STONE REAL ESTATE FUND I, L.P. AND
IRON STONE REAL ESTATE GROUP I, LLC AND
ANDREW V. EISENSTEIN

: IN THE SUPERIOR
:
COURT OF
:
PENNSYLVANIA
:
:
: No. 3347 EDA 2018
:
:
:
:
:

Appeal from the Order Entered October 1, 2018
in the Court of Common Pleas of Philadelphia County
Civil Division at No(s): No. 01497 March Term, 2017
BEFORE: KUNSELMAN, J., MURRAY, J., and PELLEGRINI,* J.
OPINION BY
PELLEGRINI, J.:

FILED MAY 29, 2019

This is an appeal by Stephen Ratner, Audrey
Ratner and Dr. Robert Ostoyich (collectively, Limited
Partners) from an order of the Court of Common Pleas
of the First Judicial District (trial court) denying its
request for summary judgment to find Iron Stone Real
Estate Fund I, L.P. (Iron Stone LP or the Partnership)
in dissolution while granting Iron Stone Real Estate
Group I, LLC (Iron Stone LLC or the General Partner)
* Retired Senior Judge assigned to the Superior Court.

App. 2
and Andrew V. Eisenstein (Manager Eisenstein) (collectively, the Iron Stone) finding that the eight year
extension of Iron Stone LP was valid under the partnership agreement. For reasons set forth in this Opinion, we affirm certain aspects of the summary
judgment order, but reverse the decision dismissing
the claim for dissolution of the Limited Partnership
and remand to the trial court to order the dissolution
in accordance with the Pennsylvania Uniform Limited
Partnership Act.
I.
A.
We take the following factual background and
procedural history from our review of the certified record. On August 17, 2005, a Certificate of Limited Partnership was filed with the Secretary of State of the
Commonwealth of Pennsylvania to form a limited
partnership named Iron Stone Real Estate Fund I, L.P.
(Partnership) under the Pennsylvania Revised Uniform Limited Partnership Act, as amended. See 15
Pa.C.S. §§ 8501-8594 (Repealed). On February 28,
2006, Iron Stone LLC entered into “An Agreement of
Limited Partnership of the Iron Stone Real Estate
Fund I, L.P.” (Limited Partnership Agreement).1 Section 3 of the Limited Partnership Agreement provided
the purpose of Limited Partnership “to acquire, hold,
maintain, operate, develop, sell, improve, lease, license,
1

The Limited Partnership Agreement is at R. 0027a-to
R. 0067a.

App. 3
pledge, encumber, dispose of and otherwise invest in,
directly or indirectly, real estate and related assets.”
(R. 0028a).
Stephen Ratner and Audrey Ratner purchased
two units out of 100 (a 2% ownership interest for a total of $200,000). Dr. Robert Ostoyich purchased one
unit out of 100 (a 1% ownership interest for $100,000)
as limited partners in Iron Stone LP, who was the general partner.2
Section 4 of the Partnership Agreement provided
that the term of the Partnership is “until December 31,
2015, unless earlier terminated in accordance with this
Agreement or unless extended in the sole discretion of
the General Partner for one or more of two additional
consecutive periods of one year each.” Pursuant to
this provision, prior to the December 31, 2013 initial
termination date, Defendant Iron Stone LLC as General Partner unilaterally extended the term of the
Partnership Agreement for the two additional one-year
periods, i.e. from December 31, 2013, to December 31,
2015.
At the expiration of the term of the Partnership,
Section 10 of the Partnership Agreement governed how
the Limited Partnership would be dissolved. It provides, in relevant part:

2

Each unit was purchased for $100,000. There were 100
units purchased so Iron Stone LP’s fund totaled $10 million. (R.R.
541a; 872a).

App. 4
10.1. Dissolution
(a) The Partnership shall be dissolved and
its affairs wound up upon the happening of
any of the following events:
***
(iv) The expiration of the term (as the
same may be extended hereunder) of the Partnership;
(b) After dissolution of the Partnership, the
Partnership shall not terminate until the
Partnership’s Certificate of Limited Partnership shall have been canceled and the assets
of the Partnership shall have been distributed
. . . Notwithstanding dissolution of the
Partnership, prior to the termination of
the Partnership as aforesaid, the business of the Partnership and the affairs of
the Partners, as such, shall continue to
be governed by this Agreement. (Emphasis added)
B.
On April 25, 2016, four months after the expiration of the term of the Agreement, Iron Stone LP sent
a “Memorandum to Limited Partners” stating in relevant part: “We are writing to let you know about the
next steps for Iron Stone Real Estate Fund I, L.P.
(‘Fund’). The fund was established in March 2006 with
the expectation that all investments would be sold and
the partnership unwound by the end of 2015. But given
the current status of Falls Center, the Fund’s largest

App. 5
remaining investment, we believe the correct course is
to extend the term of the fund for an additional eight
(8) years.” (R. 0069a-0071a).
After detailing the reasons why Iron Stone LP believed this extension was in the best interests of all of
the limited partners, the “Memorandum to Limited
Partners” concluded: “We understand that this is a significant change to the plan we began with in 2006. But
after managing the Fund’s portfolio, and Falls Center
in particular, through the 2008 economic crisis we have
positioned the remainder the portfolio for a positive
outcome. We believe that staying the course is the
smart way to go.” (R. 0071a).
Each limited partner was given a copy of the proposed amendment and a written consent form to sign
and return. The consent form stated “this Unanimous
Written Consent may be executed by any number of
counterparts each of whom shall be an original . . . ” (R.
0072a).
This vote extending the term of the partnership
was purportedly authorized and conducted pursuant
to Paragraph 15.1. titled “Amendment.” It provides, in
relevant part:
(a) No alteration, modification or amendment of this Agreement shall be made unless
in writing and signed (in counterpart or
otherwise) by the General Partner and nondefaulting Limited Partners holding at least a
majority of the outstanding Units held by
non-defaulting Limited Partners, except that

App. 6
no alteration, modification or amendment of
any section hereof which would materially
and adversely affect the economic interests of
one or more (but not all) of the non-defaulting
limited Partners may be made (except as provided below) without the unanimous consent
of all non-defaulting Limited Partners so adversely affected. An alteration, modification or
amendment of any Section of this Agreement
that materially and adversely affects the economic interests of all Limited Partners, as a
class, may be made with the consent of the
General Partner and Limited Partners holding 66% of the outstanding (hits bold by Limited Partners (including Units held by
affiliates of the General Partner), except that
no increase in the amount required to be contributed to the Partnership by the Limited
Partners, other than as required herein or under applicable law, may be made without the
consent of all the Limited Partners.
***
(c) Except as otherwise expressly provided
for herein, whenever the General Partner desires to take any action which requires the
consent or approval of all or a portion of the
Limited Partners, the General Partner shall
give written notice thereof (delivered in accordance with the requirements of Section
15.2 hereof ) to each Partner from which any
consent or approval is required describing
the proposed action. As soon as practicable
thereafter, each such Partner shall give the
General Partner written notice (delivered in

App. 7
accordance with the requirements of Section
15.2 hereof ) that such Partner either consents
to or approves or does not consent to or approve the proposed action. In the event that
any such Partner fails to respond (as provided
herein) on or before the 30th day following notice, as provided herein, of any such proposed
action by the 30th day following notice that
Partner shall be conclusively presumed to
have consented to or approved such action.
Each of the three Limited Partners voted to reject
the extension of the duration of the Partnership because, among other reasons, a request for an extension
occurred after the expiration.
Of all the Limited Partners who actually voted,
over 66% of the Limited Partners voted to extend or
abstained from voting to subsequently extend the Partnership for an additional eight years. However, only
34.75% of the Limited Partners returned ballots
agreeing to extend the Partnership and, thus, 65.25%
of the Limited Partners either did not vote to extend
or voted against the extension. (R. 001047a). Based on
that vote, Iron Stone claimed that the term of the Partnership was extended through December 31, 2023.
(R.0012a). Iron Stone LLC, acting as the general partner, executed the proposed amendment and extended
the term of Iron Stone LP eight years.
C.
After their demand for payment of the value of
their units, for an accounting of the value of their

App. 8
“units” and/or for the proper dissolution of the Partnership was refused, the Limited Partners filed a Complaint, later amended, and not as a derivative action
brought on behalf of Iron Stone LP and/or the Limited
Partners, as a class. (R.R. 543a). The Amended Complaint asserted six causes of action alleging Breach of
Fiduciary Duty (Count I), Breach of Implied Duty of
Good Faith and Fair Dealing (Count II), Breach of Contract (Count III), Accounting (Count IV), Dissolution of
Partnership (Count V) and Conversion (Count VI).
Underlying all of Limited Partners’ claims was the
manner by which the Limited Partnership Agreement
was purportedly extended. They claimed that the vote
to extend the Partnership Agreement was ineffective
because it was not requested until after the limited
partnership had expired; if the vote could have taken
place, the vote to extend did not pass because it required unanimous consent because it would affect the
rights of individual limited partners differently; and if
it was not required to pass unanimously, then the vote
count was faulty.
As to the other counts not dealing with the extension of the term of the limited partnership, they contended that because Manager Eisenstein, as managing
partner, receives a management fee and/or salary from
the management of the Partnership and, therefore,
benefits individually from the improper continuation
of the Partnership, breached the implied covenant of
good faith and fair dealing each owed to the Plaintiffs
causing them great financial loss. They also demanded
an accounting and dissolution of the Partnership.

App. 9
D.
On preliminary objections, the trial court dismissed the Limited Partnership’s claims for breach of
the implied duty of good faith and fair dealing and conversion. After the close of the pleadings, cross-motions
for summary judgment were filed. Iron Stone sought
dismissal of the remaining counts for breach of contract, breach of fiduciary duty, accounting and dissolution because the Limited Partners did not have
standing to maintain those claims because they were
derivative in nature and that the duration of the contract had been properly extended. In its cross-motion
for summary judgment, the Limited Partners maintained the opposite but only sought dissolution of the
Partnership.3 The trial court granted Iron Stone LP’s
motion and denied the Limited Partners’ motion for
summary judgment.
In doing so, the trial court found that the breach
of contract claim could not be sustained because the
Iron Stone LP partnership term was extended in accordance with the Partnership Agreement because
66.67% of the Limited Partners consented to the extension of Iron Stone LPs’ term in accordance with Paragraph 15.1(a) of the Partnership Agreement. It also
stated that it “does not find persuasive plaintiffs’
3

Due to significant disputes during discovery, a discovery
master was appointed to prevent turnover of the Limited Partners’ personal financial information, the trial court granted Limited Partners’ request that precluded them from seeking damages
from the Defendants other than the value of their interests in the
Partnership.

App. 10
relevance upon the term ‘unanimous’ on the consent
form for the required vote.” (Trial Court Opinion at 4.)
The trial court further found that Plaintiffs cannot
recover under their Breach of Fiduciary Duty claim because (1) the “extension of Iron Stone, LP was proper”
and (2) the damages alleged are derivative in nature
and not personal to them.” (Id. at 4-5). Finally, the trial
court found that “[s]ince the claims for dissolution and
accounting are also derivative in nature and not personal to them, the claims for dissolution and accounting are dismissed.” (Id. at 5). After their Petition for
Reconsideration was denied, the Limited Partners took
this appeal.4
4

“Our scope of review of summary judgment orders is plenary. We apply the same standard as the trial court, reviewing
all the evidence of record to determine whether there exists a genuine issue of material fact. We view the record in the light most
favorable to the non-moving party, and all doubts as to the existence of a genuine issue of material fact must be resolved against
the moving party. Only where there is no genuine issue as to any
material fact and it is clear that the moving party is entitled to
judgment as a matter of law will summary judgment be entered.
Motions for summary judgment necessarily and directly implicate
the plaintiffs’ proof of the elements of their cause of action. Summary judgment is proper if, after the completion of discovery relevant to the motion, including the production of expert reports,
an adverse party who will bear the burden of proof at trial has
failed to produce evidence of facts essential to the cause of action
or defense which in a jury trial would require the issues to be submitted to a jury. Thus, a record that supports summary judgment
will either (1) show the material facts are undisputed or (2) contain insufficient evidence of facts to make out a prima facie cause
of action or defense and, therefore, there is no issue to be submitted to the jury. Upon appellate review, we are not bound by the
trial court’s conclusions of law, but may reach our own

App. 11
II.
Initially, we must address whether the Limited
Partners lack standing to maintain this action because
those claims are derivative and not personal to them.
Under Pennsylvania law, a partner in a limited
partnership has standing to personally assert a direct
action against another partner if he has sustained “an
actual or threatened injury that is not solely the result
of an injury suffered or threatened to be suffered by
the limited partnership.” 15 Pa.C.S. § 8691(b). However, “[w]hen a limited partner alleges wrongs to the
limited partnership that indirectly damaged a limited
partner by rendering his contribution or interest in the
limited partnership valueless, the limited partner is
required to bring his claim derivatively on behalf of
the partnership.” Weston v. Northampton Pers.
Care, Inc., 62 A.3d 947, 957 (Pa. Super. 2013) (quotation marks omitted). In those circumstances, “such a
claim belongs to, and is an asset of, the corporation.”
Hill v. Ofalt, 85 A.3d 540, 548 (Pa. Super. 2014).5
conclusions. The appellate Court may disturb the trial court’s order only upon an error of law or an abuse of discretion.” Alexander v. City of Meadville, 61 A.3d 218, 221 (Pa. Super. 2012)
(quotation omitted).
5
15 Pa.C.S. § 8692 deals with derivative actions. It is the opposite of a direct action in that the harms are done to the limited
partnership as a whole, not mainly affecting the individual partner. To bring a derivative action “the partner first makes a demand on the general partners requesting that they cause the
partnership to bring an action to enforce the right” seeking to be
rectified. If the general partner refuses to bring such an action,
permits a limited partner to bring a derivative action. Section

App. 12
Anglo Am. Sec. Fund, L.P. v. S.R. Glob. Int’l
Fund, L.P., 829 A.2d 143, 150 (Del. Ch. 2003)6 restated
those principle and provided a test as to how to determine whether a claim is direct or derivative. It stated:
The test looks to the nature of the injury and
to the nature of remedy that could result if
the plaintiffs are successful. When a plaintiff
alleges either an injury that is different from
8692(a). See Official Comment to 15 Pa.C.S. § 8692 (“By its terms,
this section permits a general partner as well as a limited partner
to bring a derivative action.”).
6
"Section 1927 of the Statutory Construction Act directs
that, “[s]tatutes uniform with those of other states shall be interpreted and construed to affect their general purpose to make uniform the laws of those states which enact them.” 1 Pa.C.S. § 1927.
Although statutes, commentary and decisions of our sister states
are certainly not binding on this Court, it is important in construing a uniform act to recognize how those states have interpreted
similar provisions. See Sternlicht v. Sternlicht, 583 Pa. 149,
876 A.2d 904, 911 n. 13 (2005) (“[I]n construing a uniform law,
this Court must consider the decisions of our sister states who
have adopted and interpreted such uniform law and must afford
these decisions great deference.”); Continental Ins. Co. v.
Schneider, Inc., 582 Pa. 591, 873 A.2d 1286, 1294 n. 10 (2005)
(“Although these cases involved other jurisdictions’ versions of
the UCC, they are nevertheless persuasive authority here as
the relevant provisions in their UCC statutes are substantially
similar to the provisions in the Pennsylvania UCC[.]”); Commonwealth v. National Bank & Trust Co. of Central Pennsylvania, 469 Pa. 188, 364 A.2d 1331, 1335 (1976) (“While it is a truism
that decisions of sister states are not binding precedent on this
Court, they may be persuasive authority, . . . and are entitled to
even greater deference where consistency and uniformity of application are essential elements of a comprehensive statutory
scheme like that contemplated by the Uniform Commercial
Code.”) (citations omitted. Koken v. Reliance Ins. Co., 586 Pa.
269, 893 A.2d 70, 83 (2006).

App. 13
what is suffered by other shareholders (or
partners) or one that involves a contractual
right of shareholders (or partners) that is independent of the entity’s rights, the claim is
direct. If the injury is one that affects all partners proportionally to their pro rata interests
in the corporation, the claim is derivative. In
a derivative action the plaintiff sues for an injury done to the partnership and any recovery
of damages is paid to the partnership. Conversely, in a direct action the plaintiff sues to
redress an injury suffered by the individual
plaintiff and damages recovered are paid directly to the plaintiff who was injured. (footnotes omitted.)
In this case, in their six count Complaint, the Limited Partners make two types of claims. In Count I,
Breach of Fiduciary Duty; Count II, Breach of Implied
Duty of Good Faith and Fair Dealing; and Count IV,
Conversion, they maintain, among other things, that
Manager Eisenstein improperly made multi-million
dollar loans to related parties; that he received millions of dollars in improper administrative and management fees; and that he was being paid excessively.
In each of those counts they sought damages for the
alleged improper dealings.
Those counts are clearly derivative because they
claim that the General Partner and Manager Eisenstein received improper payments, making any damages due to the Limited Partnership and not to Limited
Partners, even though they may be incidentally affected. Because the injury claimed in those counts

App. 14
affects all partners proportionally to their pro rata interests in the corporation, they are derivative and the
Limited Partners do not have standing to maintain
those counts.
However, those counts that set forth Breach of
Contract (Count III,) Accounting (Count IV), and Dissolution of Partnership (Count V), the Limited Partners are claiming that the General Partner Iron Stone
LLC refused to wind up the affairs of the Limited Partnership because under the Limited Partnership Agreement, it was in dissolution, as well as access to its
financial records. These are types of breaches to the
partnership agreement that injures a partner in a way
that is not incidental to an injury to the partnership
allowing for a direct action to be brought by the injured
limited partner.
In Anglo Am. Sec. Fund, the Delaware court also
stated: “When a plaintiff alleges . . . an injury . . . that
involves a contractual right of shareholders (or partners) that is independent of the entity’s rights, the
claim is direct.” See Anglo American, 829 A.2d at 150.
See also Ionosphere Clubs, Inc. v. American National Bank & Trust Company of Chicago, 17 F.3d
600, 605 (2nd Cir. 1994); see also Callison and Sullivan, Partnership Law and Practice: General and Limited Partnerships § 28.3 (2004) (noting that a direct
action is appropriate “to enforce the right to inspect
limited partnership books and records, to compel distributions required by the limited partnership agreement, to enforce voting rights, and to compel
dissolution of the limited partnership.)

App. 15
Because in counts seeking dissolution and accounting (Counts III, IV and V), the Limited Partners
are seeking the enforcement of their individual rights
and return of monies individually to them as required
under the Limited Partnership Agreement and/or the
Limited Partnership Act, and this is a direct action
within the meaning of 15 Pa.C.S. § 8691(b) and the
Limited Partners have standing to maintain those
counts.
Now to the merits.
III.
Central to the resolution of this appeal is whether
the trial court erred in holding that the Partnership
Agreement was properly extended. There is no dispute
that a vote taken pursuant to Section 15.1 to amend
the Partnership Agreement to extend its duration
prior to its December 31, 2015 termination date would
have been permissible. The question is whether the duration of the Partnership Agreement can be extended
after the Partnership had expired.7

7

Like the trial court, we do not find persuasive the Limited
Partners’ argument that the term “unanimous” on the consent
form to be in any way determinative. The Partnership Agreement
provides the percentage of the vote to be required and that cannot
be altered by the consent form. No argument is made that the
voters were in any way mislead by this mistake. Moreover, because their reasons are merely speculative, we also find unpersuasive the Limited Partners’ argument that the requisite votes
were not received to extend the duration of the Limited Partnership, if the Limited Partnership could be extended while it was in

App. 16
The Limited Partners contend that the duration of
the Partnership cannot be extended because Section
10.1 (iv) of the Partnership Agreement provides that
the partnership “shall be dissolved and its affairs
wound up” on December 31, 2015, the expiration of the
term of the Partnership. This is bolstered by 15 Pa.C.S.
§ 8681(1) that states “A limited partnership is dissolved, and its activities and affairs must be wound
up,” when “an event or circumstance that the partnership agreement states causes dissolution.” After that
date, they contend, the duration of the Partnership
cannot be extended because it is in dissolution.
Iron Stone contends, however, that under Section
15.1 of the Partnership Agreement, the duration of the
Partnership can be extended even after an event occurs that the Partnership Agreement triggers dissolution. Section 10.1 of the Partnership Agreement does
provide:
Notwithstanding dissolution of the Partnership, prior to the termination of the Partnership as aforesaid, the business of the
Partnership and the affairs of the Partners, as
such, shall continue to be governed by this
Agreement.

dissolution. Finally, we note that the Limited Partners refer to
15 Pa.C.S. § 8353;15 Pa.C.S. § 8352, and 15 Pa.C.S. § 8449 in
support of its position. We note that those provisions are inapplicable because they apply to partnerships and not limited partnerships.

App. 17
Iron Stone also points to the Official Comment to
15 Pa.C.S. § 8681, which states, in relevant part:
In some circumstances, an amendment to the
limited partnership agreement might avert
dissolution – e.g., by revising an agreed-upon
deadline for selling the partnership assets
and winding up the business. A retroactive
amendment may also be possible. See Kindred
Ltd. P’ship v. Screen Actors Guild, Inc.,
CV082220PSGPJWX, 2009 WL 279080 at *56 (C.D. Cal. Feb. 3, 2009) (giving effect to an
amendment that retroactively eliminated an
event of dissolution).
This Comment is a direct lift from the official comments to Section 801 of the Uniform Limited Partnership Act of 2013. Unif.Ltd.Part.Act 2013 § 801. Iron
Stone concludes by saying that under both the Partnership Agreement and 15 Pa.C.S. § 8681, duration of
the Partnership can be extended beyond the agreed
date of dissolution, i.e. December 31, 2015, for eight additional years, i.e. December 31, 2023.
To answer whether the Partnership can be extended after a date that the Partnership and Agreement was extended, it is necessary to examine whether
there is anything in the Limited Partnership Act that
would preclude extension of the duration of the Partnership and how it varies from the Uniform Partnership Act of 2016.
A limited partnership is governed by both the
terms of the Partnership Agreement as well as the
laws regarding limited partnerships. See 15 Pa.C.S.A.

App. 18
§ 8611; 15 Pa.C.S. § 8616. While this Limited Partnership was formed under the Pennsylvania Revised Uniform Limited Partnership Act, the Revised Act was
superseded by the Pennsylvania Uniform Limited
Partnership Act of 2016. 15 Pa.C.S. § 8611-8695. This
Act adopted, with an omission important here, the
Uniform Limited Partnership Act 2013. With several
exceptions, the Pennsylvania Uniform Limited Partnership Act of 2016 governs and regulates the conduct
of all limited partnerships in Pennsylvania even
though they were formed prior to its effective date. 5
Pa.C.S. § 8611(c.).8
Generally, the partnership agreement governs the
duties, rights and obligation of the parties. There are
however, some provisions of the Act that a partnership
agreement may not vary. Pertinent here, 15 Pa.C.S.
§ 8615(c)(16) provides that a partnership agreement
may not “[v]ary the requirements to wind up the partnership’s activities and affairs specified in section
8682(a), (b)(1), (d) and (e) (relating to winding up and
filing of certificates).” Of those subsections, only 15
Pa.C.S. § 8682(a) is pertinent. It provides that “[a] dissolved limited partnership shall wind up its activities

8

One of those exceptions set forth in 5 Pa.C.S. § 8611(d)
states that “Section 8620(c) (relating to characteristics of limited
partnership) does not apply and the limited partnership has
whatever duration it had under the law applicable immediately
before February 21, 2017.” Section 8620(c) provides that “A limited partnership has perpetual duration.” However, there is nothing in the Act that forbids the Partnership from varying this
provision and have for a definite set of terms. 15 Pa.C.S. § 8615.

App. 19
and affairs and the partnership continues after dissolution only for the purpose of winding up.” Id.
As to the question of recession of the dissolution,
the Limited Partnership Act is silent. This is unlike the
Uniform Partnership Act of 2013 upon which the Limited Partnership Act is based. The Unif.Ltd.Part.Act
2013 § 803 specifically provides that dissolution can be
rescinded with the affirmative vote of each partner.9
9

Unif.Ltd.Part.Act 2013, § 803, provides that:
(a)

A limited partnership may rescind its dissolution,
unless a statement of termination applicable to
the partnership has become effective, [the appropriate court] has entered an order under Section
801(a)(6) dissolving the partnership, or the [Secretary of State] has dissolved the partnership under Section 811.

(b)

Rescinding dissolution under this section requires:
(1) the affirmative vote or consent of each partner; and
(2) if the limited partnership has delivered to
the [Secretary of State] for filing an amendment
to the certificate of limited partnership stating
that the partnership is dissolved and:
(A) the amendment has not become effective, delivery to the [Secretary of State] for
filing of a statement of withdrawal under
Section 208 applicable to the amendment;
or
(B) the amendment has become effective,
delivery to the [Secretary of State] for filing
of an amendment to the certificate of limited
partnership stating that dissolution has
been rescinded under this section.

App. 20
When adopting the Limited Partnership Act, our General Assembly did not adopt this provision; instead, at
15 Pa.C.S. § 803 where this provision would have been
adopted, it just states “Reserved.”
This leads us back to the Comment to 15 Pa.C.S.
§ 8681 which is a direct lift from the Official Comment
to the Unif.Ltd.Part. Act 2013 § 801. That Comment
cites to Kindred Ltd. P’ship v. Screen Actors Guild,
Inc., CV082220PSGPJWX, 2009 WL 279080 at *5-6
(C.D. Cal. Feb. 3, 2009), an unreported federal district
court case. One of the subsidiary issues in that case
was whether a 2008 amendment to the partnership
agreement was valid so as to prevent immediate dissolution on June 21, 1989, and default. The resolution
of that question involved Cal. Corp. Code § 16802(b), a
provision similar to the Unif.Ltd.Part.Act 2013 § 803,
which provides:
At any time after the dissolution of a partnership and before the winding up of its business
(c)

If a limited partnership rescinds its dissolution:
(1) the partnership resumes carrying on its activities and affairs as if dissolution had never occurred;
(2) subject to paragraph (3), any liability incurred by the partnership after the dissolution
and before the rescission has become effective is
determined as if dissolution had never occurred;
and
(3) the rights of a third party arising out of conduct in reliance on the dissolution before the third
party knew or had notice of the rescission may not
be adversely affected.

App. 21
is completed, all of the partners, including any
dissociating partner other than a wrongfully
dissociating partner, may waive the right to
have the partnership’s business wound up
and the partnership terminated. In that event
both of the following apply:
(1) The partnership resumes carrying
on its business as if dissolution had never occurred, and any liability incurred by the partnership or a partner after the dissolution and
before the waiver is determined as if dissolution had never occurred.
(2) The rights of a third party accruing
under paragraph (1) of Section 16804 or arising out of conduct in reliance on the dissolution before the third party knew or received a
notification of the waiver may not be adversely affected.
The district court held that because California law
allows partners to cancel dissolution “at any time,” and
that in the event of dissolution, the cancellation is retroactive, that when all the limited partners voted to
rescind the dissolution, such dissolution is deemed
never to have occurred. Because, unlike California and
the Uniform Limited Partnership Act, the Pennsylvania Limited Partnership Act does not contain a provision regarding recession of the dissolution, the
Comment to 15 Pa.C.S. § 8681 has no application. It
also means that the Pennsylvania Limited Partnership
Act does not provide for recession of dissolution of a
limited partnership.

App. 22
In conclusion:
• 15 Pa.C.S. § 8681(1) states that “A limited
partnership is dissolved, and its activities and
affairs must be wound up,” when “an event or
circumstance that the partnership agreement
states causes dissolution.”
• Section 10.1 (a)(iv) of the Partnership
Agreement provides that the Partnership
shall be dissolved and its affairs wound up at
the expiration of the term of the Partnership,
i.e. December 31, 2015.
• That means after December 31, 2015, under the terms of the Partnership Agreement,
the Partnership went into dissolution.
• After a partnership goes into dissolution,
15 Pa.C.S. § 8615(c)(16) provides that a partnership agreement cannot vary the requirements for winding up a dissolved partnership
set forth at 15 Pa.C.S. § 8682(a), which provides that the dissolved partnership only exists for the purpose of winding up.
• Because a partnership agreement may not
vary the requirements to wind up the partnership’s activities and affairs specified in
section 8682(a), Section 10.1 of the Partnership Agreement that allows for retroactive recession of the dissolution of the corporation is
inoperative.
• Moreover, because nothing in the Pennsylvania Uniform Partnership Act authorizes
recession of a dissolution of a Limited

App. 23
Partnership, then the vote to retroactively extend the duration was ineffective.
Accordingly, the trial court’s granting of that portion of Iron Stone’s motion for summary judgment dismissing Limited Partners’ Count I, Breach of Fiduciary
Duty; Count II, Breach of Implied Duty of Good Faith
and Fair Dealing, and Count VI, Conversion of the
Complaint as being derivative is affirmed. However,
that portion of the trial court’s order dismissing Count
IV, Breach of Contract, Count V, Dissolution of Partnership and Count III, Accounting, as well as the trial
court’s denial of the Limited Partnership’s claim seeking to have the General Partners begin winding up the
affairs of the Limited Partnership are reversed. The
matter is remanded to the trial court to enter an order
that the Limited Partnership shall wind up its activities and affairs in accordance with 15 Pa.C.S. § 8682.
Case remanded with instructions. Jurisdiction relinquished.
Judgment Entered.
/s/ Joseph D. Seletyn
Joseph D. Seletyn, Esq.
Prothonotary
Date:

5/29/19

App. 24
IN THE SUPERIOR COURT OF PENNSYLVANIA
EASTERN DISTRICT
STEPHEN RATNER AND
AUDREY RATNER AND
DR. ROBERT OSTOYICH
Appellants
v.
IRON STONE REAL ESTATE FUND I, L.P. AND
IRON STONE REAL ESTATE GROUP I, LLC AND
ANDREW V. EISENSTEIN

: No. 3347 EDA 2018
:
:
:
:
:
:
:
:
:
:

ORDER
(Filed Jul. 31, 2019)
IT IS HEREBY ORDERED:
THAT the application filed June 12, 2019, requesting
reargument of the decision dated May 29, 2019, is DENIED.
PER CURIAM

App. 25
IN THE COURT OF COMMON PLEAS
OF PHILADELPHIA COUNTY
FIRST JUDICIAL DISTRICT OF PENNSYLVANIA
CIVIL TRIAL DIVISION
STEPHEN RATNER, et al, : MARCH TERM,
: 2017
Plaintiffs
:
: NO. 01497
v.
: COMMERCE
IRON STONE REAL
:
ESTATE FUND I, L.P., et al : PROGRAM
: CONTROL NOS.
Defendants
: 18071784, 18071781
ORDER
AND NOW, on this 1st of October, 2018, upon consideration of defendants’ motion for summary judgment, plaintiffs’ motion for summary judgment, and
the responses thereto, it is hereby
ORDERED
that:
1.

Defendants’ motion is GRANTED.

2. Plaintiff ’s motion is DENIED and plaintiffs’
complaint is dismissed with prejudice.
BY THE COURT:
/s/ Glazer, J.
GLAZER, J.

App. 26
IN THE COURT OF COMMON PLEAS
OF PHILADELPHIA COUNTY
FIRST JUDICIAL DISTRICT OF PENNSYLVANIA
CIVIL TRIAL DIVISION
STEPHEN RATNER, et al, : MARCH TERM,
: 2017
Plaintiffs
:
: NO. 01497
v.
: COMMERCE
IRON STONE REAL
:
ESTATE FUND I, L.P., et al : PROGRAM
: CONTROL NOS.
Defendants
: 18071784, 18071781
GLAZER, J.

October 1, 2018

The plaintiffs, Stephen Ratner, Audrey Ratner,
and Dr. Robert Ostoyich (collectively “plaintiffs”), are
limited partners of defendant Iron Stone Real Estate
Fund I, L.P. (“Iron Stone LP”). Iron Stone Real Estate
Group I, LLC (“Iron Stone LLC”) is a general partner
of Iron Stone LP and is also a defendant. Iron Stone LP
is managed by defendant Andrew V. Eisenstein (“Eisenstein”). Presently before the court are cross motions
for summary judgment.
PROCEDURAL HISTORY
In the original complaint filed on March 15, 2017,
plaintiffs, Stephen Ratner, Audrey Ratner, and Dr.
Robert Ostoyich alleged six claims against defendants:
Breach of Fiduciary Duty (Count I), Breach of Implied

App. 27
Duty of Good Faith and Fair Dealing (Count II), Breach
of Contract (Count III), Accounting (Count IV), Dissolution of Partnership (Count V) and Conversion (Count
VI). Following preliminary objections, this court dismissed plaintiffs’ claims for breach of the implied duty
of good faith and fair dealing and conversion. On May
17, 2018, as a result of various discovery disputes, and
at the recommendation of the court-appointed discovery master, this court precluded plaintiffs from “seeking or offering any evidence at trial of any damages
other than the value of their interests in Iron Stone
Real Estate Fund I, LP”. At issue in the cross motions
for summary judgment are the remaining counts of
the complaint: breach of contract, breach of fiduciary
duty, accounting, and dissolution. For the reasons that
follow, defendants’ motion is granted and plaintiffs’
motion is denied.
FACTUAL HISTORY
On February 28, 2006, an Agreement of Limited
Partnership (the “partnership agreement”) was entered into by defendant Iron Stone LLC and by the
plaintiffs. As indicated by the language of the partnership agreement, the purpose of Iron Stone LP was “to
acquire, hold, maintain, operate, develop, sell, improve,
lease, license, pledge, encumber, dispose of and otherwise invest in, directly or indirectly, real estate and
related assets.”
Plaintiffs Stephen and Audrey Ratner purchased
two out of 100 total units in Iron Stone, LP. Plaintiff

App. 28
Dr. Robert Ostoyich purchased one unit out of 100. Pursuant to the terms of the partnership agreement which
formed Iron Stone, LP, the partnership was designated
to expire in December 2015. However, § 15(a) of the
partnership agreement permitted amendment or alteration of the agreement to extend that date. In April
2016, four months after the partnership was designated to expire, defendant Eisenstein mailed all limited partners a proposed amendment calling for
continuation of the partnership. Plaintiffs objected to
the proposed eight-year extension as they sought to
recoup their investment at the time the anticipated expiration of Iron Stone, LP. Nevertheless, as more than
66.67% of limited partners agreed to the amendment,
the partnership was extended until the year 2023.
Plaintiffs subsequently filed suit.
STANDARD OF REVIEW
Pursuant to Pa. R.C.P. 1035.2 a court may grant a
motion for summary judgment if there is no genuine
issue of material fact between the parties or if the
party carrying the burden of proof at trial, “has failed
to produce evidence of facts essential to [establish a]
cause of action.” In considering the motion, the court
must view the record in the light most favorable to the
nonmoving party, and all doubts as to the existence of
a genuine issue of material fact must be resolved
against the moving party. See Jones v. SEPTA, 772
A.2d 435, 438 (Pa. 2001).

App. 29
DISCUSSION
A. The term of Iron Stone, LP was extended
in accordance with the partnership
agreement, and therefore the claim for
breach of contract fails.
Under Pennsylvania law, a breach of contract occurs when a party to the contract fails to perform a
contractual duty or violates an obligation or engagement, and that breach is material. Braun v. Wal-Mart
Stores, Inc., 24 A.3d 875, 896 (Pa. Super. Ct. 2011). To
prove such a breach, plaintiffs must prove that a contract existed, that contract was breached, and that
damages resulted from that breach. Liss & Marion,
P.C. v. Recordex Acquisition Corp., 603 Pa. 198, 220 (Pa.
2009).
Paragraph 15.1(a) of the Iron Stone, LP Partnership Agreement provides in part as follows:
“Any alteration, modification or amendment of
any Section of this Agreement that materially
and adversely affects the economic interests of
all Limited Partners, as a class, may be made
with the consent of the General Partner and
Limited Partners holding 66 2/3% of the outstanding Units held by Limited Partners (including Units held by affiliates of the General
Partner), except that no increase in the amount
required to be contributed to the Partnership
by the Limited Partners, other than as required herein or under applicable law, may be
made without the consent of all the Limited
Partners.”

App. 30
Thus, if the proposed amendment “materially and adversely affects” the economic interest of Limited Partners as a class, only the consent of 66.67% of
outstanding Units was required to alter, modify, or
amend the partnership agreement.
According to documents produced in discovery and
made part of this record, limited partners owning
30.75 units agreed to the extension and 4 units disapproved of the extension, including the two units owned
by plaintiffs Stephen Ratner and Audrey Ratner. The
remaining 65.25 units did not respond, and were considered to have consented according to Paragraph 15(c)
of the Partnership Agreement. As a result, 96% of the
limited partners consented to the extension of the partnership term.
Since more than 66.67% of the limited partners
consented to the extension of the partnership term, the
partnership agreement was not breached and plaintiffs’ claim for breach of contract fails.1
B. Plaintiffs cannot recover under a claim
for breach of fiduciary duty.
To establish a claim for breach of fiduciary duty
under Pennsylvania law, a plaintiff must prove the following: (1) that a fiduciary duty existed, (2) the defendant negligently or intentionally failed to act in good
1

The court does not find persuasive plaintiffs’ relevance
upon the term “unanimous” on the consent form for the required
vote.

App. 31
faith and solely for the benefit of the plaintiff, (3) the
plaintiff suffered an injury, and finally (4) that the
agent’s failure to act for plaintiff ’s benefit was a real
factor in bringing about the injuries. Conquest v. WMC
Mortg. Corp., 247 F. Supp. 3d 618, 63334 (E.D. Pa.
2017) (quoting Dinger v. Allfirst Fin., Inc., Fed. App’x
261, 265 (3d Cir. 2003)).
Plaintiffs allege defendant Eisenstein failed to act
in good faith for the sole benefit of plaintiffs by improperly extending Iron Stone LP term. As a result of the
alleged improper extension, plaintiffs further allege
that Eisenstein received excessive compensation in
contradiction of the terms of the partnership agreement. This court has already found the eight-year extension of Iron Stone, LP term was proper, therefore a
breach of fiduciary duty based on that extension cannot survive. Additionally, the breach of fiduciary duty
claim is improper as this court has precluded plaintiff
from seeking or offering any evidence at trial of any
damages other than the value of their interests in Iron
Stone LP. Since the damages alleged by plaintiff for
this alleged breach of fiduciary duty are derivative in
nature and not personal to them, the claim for breach
of fiduciary duty also fails.2

2

Since the claims for dissolution and accounting are also
derivative in nature and not personal to them, the claims for dissolution and accounting are dismissed.

App. 32
CONCLUSION
Wherefore, for the reasons stated herein, the defendants’ motion for summary judgment is granted,
plaintiffs’ motion for summary judgment is denied, and
the complaint is dismissed with prejudice.
BY THE COURT:
/s/ Glazer, J.
GLAZER, J.

App. 33
IN THE COURT OF COMMON PLEAS
OF PHILADELPHIA COUNTY
FIRST JUDICIAL DISTRICT OF PENNSYLVANIA
CIVIL TRIAL DIVISION
STEPHEN RATNER, et al, : MARCH TERM,
: 2017
Plaintiffs
:
: NO. 01497
v.
: COMMERCE
IRON STONE REAL
:
ESTATE FUND I, L.P., et al : PROGRAM
: 3347 EDA 2018
Defendants
:
GLAZER, J.

December 4, 2018
OPINION

The plaintiffs, Stephen Ratner, Audrey Ratner,
and Dr. Robert Ostoyich (collectively “plaintiffs”), are
limited partners of defendant Iron Stone Real Estate
Fund I, L.P. (“Iron Stone LP”). Iron Stone Real Estate
Group I, LLC (“Iron Stone LLC”) is a general partner
of Iron Stone LP and is also a defendant. Iron Stone LP
is managed by defendant Andrew V. Eisenstein (“Eisenstein”). The court granted summary judgment in
favor of defendant and against plaintiff on October 1,
2018, to which, plaintiff filed a motion for reconsideration on October 5, 2018. Plaintiff then filed an appeal
on October 26, 2018. Defendant responded to plaintiff ’s motion for reconsideration on October 30, 2018.

App. 34
Plaintiff ’s motion for reconsideration was denied on
November 1, 2018.
PROCEDURAL HISTORY
In the original complaint filed on March 15, 2017,
plaintiffs, Stephen Ratner, Audrey Ratner, and Dr.
Robert Ostoyich alleged six claims against defendants:
Breach of Fiduciary Duty (Count I), Breach of Implied
Duty of Good Faith and Fair Dealing (Count II), Breach
of Contract (Count III), Accounting (Count IV), Dissolution of Partnership (Count V) and Conversion (Count
VI). Following preliminary objections, this court dismissed plaintiffs’ claims for breach of the implied duty
of good faith and fair dealing and conversion. On May
17, 2018, as a result of various discovery disputes, and
at the recommendation of the court-appointed discovery master, this court precluded plaintiffs from “seeking or offering any evidence at trial of any damages
other than the value of their interests in Iron Stone
Real Estate Fund I, LP”. At issue in the cross motions
for summary judgment were the remaining counts of
the complaint: breach of contract, breach of fiduciary
duty, accounting, and dissolution. For reasons stated in
the following opinion, defendant’s motion was granted
and plaintiff ’s motion was denied.1

1

The court did not grant the request to hold oral argument
as the pleadings from both sides were exquisitely drafted, sufficiently captured the issues and permitted this court to decide the
case without need for oral argument.

App. 35
FACTUAL HISTORY
On February 28, 2006, an Agreement of Limited
Partnership (the “partnership agreement”) was entered into by defendant Iron Stone LLC and by the
plaintiffs. As indicated by the language of the partnership agreement, the purpose of Iron Stone LP was “to
acquire, hold, maintain, operate, develop, sell, improve,
lease, license, pledge, encumber, dispose of and otherwise invest in, directly or indirectly, real estate and related assets.”
Plaintiffs Stephen and Audrey Ratner purchased
two out of 100 total units in Iron Stone, LP. Plaintiff
Dr. Robert Ostoyich purchased one unit out of 100. Pursuant to the terms of the partnership agreement which
formed Iron Stone, LP, the partnership was designated
to expire in December 2015. However, § 15(a) of the
partnership agreement permitted amendment or alteration of the agreement to extend that date. In April
2016, four months after the partnership was designated to expire, defendant Eisenstein mailed all limited partners a proposed amendment calling for
continuation of the partnership. Plaintiffs objected to
the proposed eight-year extension as they sought to recoup their investment at the time the anticipated expiration of Iron Stone, LP. Nevertheless, as more than
66.67% of limited partners agreed to the amendment,
the partnership was extended until the year 2023.
Plaintiffs subsequently filed suit.

App. 36
STANDARD OF REVIEW
Pursuant to Pa. R.C.P. 1035.2 a court may grant a
motion for summary judgment if there is no genuine
issue of material fact between the parties or if the
party carrying the burden of proof at trial, “has failed
to produce evidence of facts essential to [establish a]
cause of action.” In considering the motion, the court
must view the record in the light most favorable to the
nonmoving party, and all doubts as to the existence of
a genuine issue of material fact must be resolved
against the moving party. See Jones v. SEPTA, 772
A.2d 435, 438 (Pa. 2001).
DISCUSSION
A. The term of Iron Stone, LP was extended
in accordance with the partnership
agreement, and therefore the claim for
breach of contract fails.
Under Pennsylvania law, a breach of contract occurs when a party to the contract fails to perform a
contractual duty or violates an obligation or engagement, and that breach is material. Braun v. Wal-Mart
Stores, Inc., 24 A.3d 875, 896 (Pa. Super. Ct. 2011). To
prove such a breach, plaintiffs must prove that a contract existed, that contract was breached, and that
damages resulted from that breach. Liss & Marion,
P.C. v. Recordex Acquisition Corp., 603 Pa. 198, 220 (Pa.
2009).
Paragraph 15.1(a) of the Iron Stone, LP Partnership Agreement provides in part as follows:

App. 37
“Any alteration, modification or amendment of
any Section of this Agreement that materially
and adversely affects the economic interests of
all Limited Partners, as a class, may be made
with the consent of the General Partner and
Limited Partners holding 66 2/3% of the outstanding Units held by Limited Partners (including Units held by affiliates of the General
Partner), except that no increase in the amount
required to be contributed to the Partnership
by the Limited Partners, other than as required herein or under applicable law, may be
made without the consent of all the Limited
Partners.”
Thus, if the proposed amendment “materially and
adversely affects” the economic interest of Limited
Partners as a class, only the consent of 66.67% of outstanding Units was required to alter, modify, or amend
the partnership agreement.
According to documents produced in discovery and
made part of this record, limited partners owning
30.75 units agreed to the extension and 4 units disapproved of the extension, including the two units
owned by plaintiffs Stephen Ratner and Audrey Ratner. The remaining 65.25 units did not respond, and
were considered to have consented according to Paragraph 15(c) of the Partnership Agreement. As a result,
96% of the limited partners consented to the extension
of the partnership term.
Since more than 66.67% of the limited partners
consented to the extension of the partnership term, the

App. 38
partnership agreement was not breached and plaintiffs’ claim for breach of contract fails.2
B. Plaintiffs cannot recover under a claim
for breach of fiduciary duty.
To establish a claim for breach of fiduciary duty
under Pennsylvania law, a plaintiff must prove the
following: (1) that a fiduciary duty existed, (2) the
defendant negligently or intentionally failed to act in
good faith and solely for the benefit of the plaintiff,
(3) the plaintiff suffered an injury, and finally (4) that
the agent’s failure to act for plaintiff ’s benefit was a
real factor in bringing about the injuries. Conquest v.
WMC Mortg. Corp., 247 F. Supp. 3d 618, 633-34 (E.D.
Pa. 2017) (quoting Dinger v. Allfirst Fin., Inc., Fed.
App’x 261, 265 (3d Cir. 2003)).
Plaintiffs allege defendant Eisenstein failed to act
in good faith for the sole benefit of plaintiffs by improperly extending Iron Stone LP term. As a result of the
alleged improper extension, plaintiffs further allege
that Eisenstein received excessive compensation in
contradiction of the terms of the partnership agreement. This court has already found the eight-year extension of Iron Stone, LP term was proper, therefore a
breach of fiduciary duty based on that extension cannot survive. Additionally, the breach of fiduciary duty
claim is improper as this court has precluded plaintiff
from seeking or offering any evidence at trial of any
2

The court does not find persuasive plaintiffs’ reliance upon
the term “unanimous” on the consent form for the required vote.

App. 39
damages other than the value of their interests in Iron
Stone LP. Since the damages alleged by plaintiff for
this alleged breach of fiduciary duty are derivative in
nature and not personal to them, the claim for breach
of fiduciary duty also fails.3
CONCLUSION
Wherefore, for the reasons stated herein, the defendants’ motion for summary judgment is granted,
plaintiffs’ motion for summary judgment is denied, and
the complaint is dismissed with prejudice.
BY THE COURT:
/s/ Glazer, J.
GLAZER, J.

3
Since the claims for dissolution and accounting are also
derivative in nature and not personal, the claims for dissolution
and accounting are dismissed.

App. 40
IN THE SUPREME COURT OF PENNSYLVANIA
EASTERN DISTRICT
STEPHEN RATNER,
AUDREY RATNER AND
DR. ROBERT OSTOYICH,
Respondents
v.
IRON STONE REAL
ESTATE FUND I, L.P.,
IRON STONE REAL ESTATE GROUP I, LLC AND
ANDREW V. EISENSTEIN,
Petitioners

:
:
:
:
:
:
:
:
:
:
:
:
:

No. 440 EAL 2019
Petition for Allowance of Appeal from
the Order of the
Superior Court

ORDER
PER CURIAM
AND NOW, this 4th day of February, 2020, the
Petition for Allowance of Appeal is DENIED.

App. 41
IN THE SUPREME COURT OF PENNSYLVANIA
EASTERN DISTRICT
STEPHEN RATNER,
AUDREY RATNER AND
DR. ROBERT OSTOYICH,
Respondents
v.
IRON STONE REAL
ESTATE FUND I, L.P.,
IRON STONE REAL ESTATE GROUP I, LLC AND
ANDREW V. EISENSTEIN,
Petitioners

: No. 440 EAL 2019
:
:
:
:
:
:
:
:
:
:
:
:

ORDER
PER CURIAM
AND NOW, this 6th day of March, 2020, the
Application for Reconsideration is DENIED. The Respondents’ motion for leave of court to answer Petitioners’ application for reconsideration is DENIED.

